<html>
<title> - AMERICAN INFRASTRUCTURE AND THE SMALL BUSINESS PERSPECTIVE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       AMERICAN INFRASTRUCTURE AND THE SMALL BUSINESS PERSPECTIVE

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             APRIL 25, 2018

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


            Small Business Committee Document Number 115-064
             Available via the GPO Website: www.govinfo.gov
             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-921                      WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>              
             
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Alma Adams..................................................     2

                               WITNESSES

Ms. Marsia Geldert-Murphey, Chief Operating Officer, W. James 
  Taylor, Inc., Belleville, IL, testifying on behalf of the 
  American Society of Civil Engineers............................     4
Mr. Bill Schmitz, Vice President, Sales and Quality Control, 
  Gernatt Asphalt Company, Collins, NY, testifying on behalf of 
  the National Stone, Sand, and Gravel Association...............     6
Mr. Kevin Beyer, General Manager, Farmers Mutual Telephone 
  Company and Federated Telephone Cooperative, Chokio, MN, 
  testifying on behalf of NTCA-The Rural Broadband Association...     7
Mr. Bob Dagostino, President and CEO, Dagostino Electronic 
  Services, Inc., Pittsburgh, PA, testifying on behalf of the 
  National Electrical Contractors Association....................     9

                                APPENDIX

Prepared Statements:
    Ms. Marsia Geldert-Murphey, Chief Operating Officer, W. James 
      Taylor, Inc., Belleville, IL, testifying on behalf of the 
      American Society of Civil Engineers........................    21
    Mr. Bill Schmitz, Vice President, Sales and Quality Control, 
      Gernatt Asphalt Company, Collins, NY, testifying on behalf 
      of the National Stone, Sand, and Gravel Association........    24
    Mr. Kevin Beyer, General Manager, Farmers Mutual Telephone 
      Company and Federated Telephone Cooperative, Chokio, MN, 
      testifying on behalf of NTCA-The Rural Broadband 
      Association................................................    31
    Mr. Bob Dagostino, President and CEO, Dagostino Electronic 
      Services, Inc., Pittsburgh, PA, testifying on behalf of the 
      National Electrical Contractors Association................    43
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    CCA - Competitive Carriers Association.......................    52

 
       AMERICAN INFRASTRUCTURE AND THE SMALL BUSINESS PERSPECTIVE

                              ----------                              


                       WEDNESDAY, APRIL 25, 2018

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:58 a.m., in Room 
2360, Rayburn House Office Building, Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, King, Brat, Blum, 
Fitzpatrick, Evans, Adams, and Schneider.
    Chairman CHABOT. Good morning. The Committee will come to 
order.
    I first of all want to apologize for us having a little 
late start here. We, of course, had the President of France 
addressing a joint session of Congress, and that is why we were 
running a little bit late. So for that, we apologize.
    Our nation is on the cusp of many major changes in its 
transportation system. We have seen the development of GPS, 
companies such as Uber and Lyft, and electric vehicles. These 
innovations are transforming the movement of people, goods, and 
services.
    But our current transportation infrastructure system is, 
simply put, stuck in a different generation. And, 
unfortunately, our nation's small business owners often feel 
these effects the most. On average, the typical American 
commuter loses 42 hours of valuable productivity time each year 
to traffic. Some of us who travel around D.C. might agree that 
we lose more.
    Currently, an estimated 20 percent of Federal roads provide 
poor ride quality and 25 percent of bridges are fundamentally 
obsolete--excuse me, functionally obsolete, as well as 
fundamentally obsolete. I am willing to bet that every member 
in this room can think of at least one urgent infrastructure 
project in their district that they would like to see fixed 
today.
    While there are many that come to mind in my district, one 
that is very important to small businesses alike is the Brent 
Spence Bridge. This is a bridge that connects Ohio to Kentucky 
and carries an estimated 172,000 vehicles on Interstates 71 and 
75 each day, more than double its intended capacity.
    To put this bridge's age in perspective, it was slated to 
be dedicated--it ultimately was delayed for a short period of 
time--during the week of President John F. Kennedy's 
assassination. Because of that assassination the dedication was 
delayed for a couple of days. Today it is labeled functionally 
obsolete by the U.S. Department of Transportation.
    As this Committee has learned in past hearings, broadband 
deployment is also a crucial part of our nation's 
infrastructure, particularly for entrepreneurs in rural areas. 
As business owners continue to move to a more global 
marketplace, access to broadband is crucial to keeping small 
businesses competitive.
    Unfortunately, about 39 percent of the rural population, or 
23 million people, still lack access to broadband internet 
service considered fast by the Federal Communications 
Commission.
    As with any major project, it is critical that small 
businesses are not left out of the conversation. Small 
businesses both create and rely upon our nation's 
infrastructure system. And as they create two out of three new 
jobs, they will likely be a driving force in repairing our 
broken system.
    I look forward to hearing from small business owners today 
and their ideas for moving our nation's infrastructure into the 
21st century.
    And I would now like to yield to the acting Ranking Member, 
Ms. Adams, for her opening statement.
    Ms. ADAMS. Thank you, Mr. Chairman.
    And thank you all very much for being here.
    Infrastructure is a critical component to our economy and 
central to the nation's competitiveness. Port facilities help 
in the distribution of goods and people across the world. 
Utility systems provide the energy necessary to run factories, 
allowing for the production of goods.
    Telecommunications and broadband systems enable access to 
critical information and affordable communication. The nation's 
highways, bridges, and transit networks make possible the flow 
of goods and services.
    These systems form the economy's framework and are what 
makes the country competitive by allowing us to work more 
efficiently.
    Investment in infrastructure promotes future economic 
opportunities. In fact, 61 percent of the jobs directly created 
by infrastructure spending would be in the construction sector, 
12 percent in the manufacturing sector, and 7 percent in retail 
trade. That is 80 percent in these three sectors alone.
    Most importantly, 90 percent of these jobs are good paying 
middle-class jobs, many of which are supported by our nation's 
small businesses. Small companies dominate many of the sectors 
that maintain, strengthen, and upgrade our infrastructure and 
transportation networks. From construction to engineering to 
architecture, small businesses are critical to maintaining our 
infrastructure systems.
    Accordingly, a robust and well-planned investment in our 
infrastructure would benefit small businesses, both as users of 
these networks and by creating business opportunities for them.
    Unfortunately, the President's infrastructure plan unveiled 
earlier this year would fall woefully short of this goal. His 
plan slashes real Federal investments and shifts the burden to 
cash-strapped States and local governments. It cuts more than 
$168 billion from existing transportation and infrastructure 
programs, and it allows large companies and foreign investors 
to toll our roads and bridges.
    This privatized approach would mean that many small 
companies will be paying Wall Street companies to access 
transportation arteries. Moreover, the Trump plan would largely 
circumvent environmental safeguards, gutting clean water, clean 
air protections, under the excuse of speeding up projects.
    Although large Wall Street companies may benefit from this 
radical new infrastructure approach, there is nothing in the 
President's proposal that would guarantee small companies 
receive their fair share of Federal contracts for the new 
infrastructure upgrades.
    I find it telling that in the 53-page document, the phrase 
``small business'' does not even appear once. Absent an 
assurance that small firms will receive their fair share of 
this work, the small business sector should be very skeptical 
of this plan.
    All of us have an obligation to ensure that there is 
adequate Federal infrastructure investment to stimulate the 
economy and to ensure our nation's long-term competitiveness. 
Doing so will ensure small businesses benefit both as 
contractors and as those who use our infrastructure while 
creating good jobs along the way. And it is my hope that 
today's discussion can help identify strategies for 
accomplishing that goal.
    On that note, I want to thank the witnesses for being here, 
and I look forward to your testimony.
    I yield back, Mr. Chair.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    And if members have opening statements prepared, I would 
ask that they be submitted for the record.
    And I will take just a moment before I introduce the panel 
this morning to explain our rules. We operate under the 5-
minute rule. There is a lighting system to help you to stay 
within that. The green light will be on for 4 minutes; the 
yellow light will come on and let you know you have got a 
minute to wrap up; and then the red light will come on and that 
means stop. But if you go on a little bit, that will be okay, 
but try to stay within those parameters if at all possible.
    And I would now like to introduce our panel.
    Our first witness is Marsia Geldert-Murphey, Chief 
Operating Officer with W. James Taylor, Inc., located in 
Belleville, Illinois. She received both her master's and 
bachelor's degree in civil engineering and her 25 years of 
professional experience spans the public and private sectors.
    Ms. Geldert-Murphey is testifying today on behalf of the 
American Society of Civil Engineers.
    And we welcome you this morning.
    Our next witness will be Bill Schmitz, who is the Vice 
President for Sales and Quality Control at Gernatt Asphalt 
Company in Collins, New York. Gernatt Asphalt has 11 locations 
across western New York that produce and supply sand and gravel 
products.
    Mr. Schmitz testified before our Committee in June of 2015 
and will testify again today on behalf of the National Sand, 
Stone, and Gravel Association.
    We welcome you back to the Committee.
    Our third witness will be Kevin Beyer, General Manager of 
both the Federated Telephone Cooperative and Farmers Mutual 
Telephone Company in Chokio, Minnesota. These two cooperatives 
provide telecommunication services for over 2,700 square miles 
in rural Minnesota.
    Mr. Beyer will be testifying today on behalf of NTCA - The 
Rural Broadband Association.
    And we thank you for being here.
    And I would now like to ask Ms. Adams if she would like to 
introduce our fourth and final witness.
    Ms. ADAMS. Thank you, Mr. Chairman.
    It is my pleasure to introduce Mr. Bob Dagostino, President 
and CEO of Dagostino Electronic Services, Inc., or DES, founded 
in 1973. Mr. Dagostino has more than 45 years of experience 
designing and installing innovative and comprehensive 
communication solutions and related infrastructure for voice, 
data, wireless security, and building automation.
    He holds the credential of a building industry consulting 
service international registered communications distribution 
designer. He currently serves on the board of directors for the 
Western Pennsylvania Chapter of the National Electrical 
Contractors Association.
    Mr. Dagostino, welcome. Thank you for testifying today.
    Chairman CHABOT. Thank you very much.
    And Ms. Geldert-Murphey is recognized for 5 minutes.

   STATEMENTS OF MS. MARSIA GELDERT-MURPHEY, CHIEF OPERATING 
 OFFICER, W. JAMES TAYLOR, INC., BELLEVILLE, IL, TESTIFYING ON 
  BEHALF OF THE AMERICAN SOCIETY OF CIVIL ENGINEERS; MR. BILL 
  SCHMITZ, VICE PRESIDENT, SALES AND QUALITY CONTROL, GERNATT 
   ASPHALT COMPANY, COLLINS, NY, TESTIFYING ON BEHALF OF THE 
NATIONAL STONE, SAND, AND GRAVEL ASSOCIATION; MR. KEVIN BEYER, 
GENERAL MANAGER, FARMERS MUTUAL TELEPHONE COMPANY AND FEDERATED 
TELEPHONE COOPERATIVE, CHOKIO, MN, TESTIFYING ON BEHALF OF NTCA 
   - THE RURAL BROADBAND ASSOCIATION; AND MR. BOB DAGOSTINO, 
    PRESIDENT AND CEO, DAGOSTINO ELECTRONIC SERVICES, INC., 
PITTSBURGH, PA, TESTIFYING ON BEHALF OF THE NATIONAL ELECTRICAL 
                    CONTRACTORS ASSOCIATION

              STATEMENT OF MARSIA GELDERT-MURPHEY

    Ms. GELDERT-MURPHEY. Thank you, Chairman Chabot and Acting 
Ranking Member Ms. Adams and members. I appreciate the 
opportunity to speak to you here today.
    I am a licensed professional engineer and the Chief 
Operating Officer for W. James Taylor, Inc., a woman-owned 
small business. I have over 25 years of experience in civil 
engineering, design, and construction, 18 of those years with 
small businesses.
    I serve on the Board of Direction of the American Society 
of Civil Engineers, a professional engineering society with 
more than 150,000 members representing 50 States. Over half of 
ASCE's members work for private engineering firms and a 
majority of engineering firms are small businesses.
    Every 4 years, since 1998, ASCE has prepared a rating of 
the nation's infrastructure in our Infrastructure Report Card. 
In the 2017 Report Card, our nation's cumulative grade was a D-
plus.
    Poor grades reflect the underinvestment in our 
infrastructure. Our nation faces an infrastructure investment 
deficit of $2 trillion over the next 10 years. The investment 
gap has led to deficient roads and bridges, water main breaks, 
inadequate ports and inland waterways, late flights, and so 
much more.
    Failing to close this infrastructure investment gap brings 
serious economic uncertainty for small business. Businesses of 
all sizes are directly impacted through this lack of investment 
in our nation's infrastructure.
    As ASCE highlighted in its 2016 economic study ``Failure to 
Act,'' failing to close this infrastructure investment gap 
brings significant economic consequences. If not addressed 
throughout the nation's infrastructure sectors, the economy is 
projected to lose almost $4 trillion in GDP, $7 trillion in 
lost business sales, and a loss of 2.5 million jobs in 2025. On 
top of those costs, each hardworking American family loses 
approximately $3,400 in disposable income each year from the 
underperforming infrastructure.
    Our nation is at a crossroads. Languishing infrastructure 
impedes our ability to compete in the global economy, which 
provides meaningful opportunity for small business. We need to 
increase our Federal investment to address the national 
infrastructure deficit to achieve the economic conditions 
needed for the 21st century.
    To close the $2 trillion 10-year investment gap we must 
increase investment from all levels of government and the 
private sector from 2.5 percent GDP to 3.5 percent GDP by 2025. 
We should begin with the following steps.
    One, protect the competitive procurement of A/E services. 
In 1972, the Brooks Act established the use of Quality Based 
Selection, QBS, which bolsters small business interest by 
providing services not solely based on cost but on 
qualifications, increasing small business' competitive edge, 
allowing small firms to compete with large firms.
    Two, fix the highway trust fund by adding 25 cents to the 
Federal motor fuel tax. The current user fee should be raised 
and tied to inflation to restore its original purchasing power. 
This idea has been led by the U.S. Chamber of Commerce and 
would provide a necessary infusion of $375 billion over 10 
years and address the $1.1 trillion backlog of surface 
transportation capital needs. This investment would undoubtedly 
benefit small business.
    Three, authorize programs to improve deficient 
infrastructure by fully funding them in an expedited, 
prioritized manner.
    Four, recognize that some elements of transportation 
policy, such as freight corridors and ports, require a more 
strategic focus from the Federal Government.
    And, finally, small businesses will benefit from 
streamlining the project decisionmaking process. ASCE favors 
the idea of ``One Agency, One Decision'' to reduce the time to 
reach decisions on projects.
    We must take these steps to ensure all businesses, and 
especially small businesses, can thrive in the competitive 
global marketplace.
    When Congress is successful in crafting legislation to 
increase investment in infrastructure, it will not only benefit 
engineering firms, but any small business that relies on 
infrastructure for its livelihood.
    That concludes my formal statement. Thank you for your 
time.
    Chairman CHABOT. Thank you very much. The gentlelady's time 
has expired.
    The next gentleman, Mr. Schmitz, you are recognized for 5 
minutes.

                   STATEMENT OF BILL SCHMITZ

    Mr. SCHMITZ. Chairman Chabot, Ranking Member Adams, and the 
members of the Committee, thank you for inviting me to testify 
on behalf of the National Stone, Sand, and Gravel Association. 
I am Bill Schmitz, Vice President of Dan Gernatt Gravel 
Products.
    NSSGA advances public policies that protect and expand the 
safe and environmentally responsible use of aggregates that 
build America's infrastructure and economy. Our industry 
directly employs over 100,000 people and supports an additional 
450,000 jobs throughout the economy. Aggregates are used in all 
construction and public works projects.
    Since 1946, the Gernatt family and their companies have 
been proud to provide sand, gravel, stone, landscape aggregate, 
hot mix asphalt, and trucking to western New York, Buffalo, and 
northwestern Pennsylvania. Our locations are spread over three 
rural counties where people struggle to find good paying jobs.
    We applaud the administration for focusing on increased 
infrastructure investment. However, we need the funding from 
the Federal Government to be more robust, routine, and reliable 
if we are to truly fix our nation's infrastructure woes.
    Infrastructure projects help create jobs and allow the 
movement of goods that are essential to the American way of 
life. Our system must be modernized to meet current demands, 
but it takes a long-term commitment. The highway trust fund 
must be permanently fixed.
    NSSGA also supports the administration's focus on 
infrastructure improvements to rural areas where the investment 
is desperately needed.
    Rural areas lack a critical component of today's technology 
infrastructure. In our case, the absence of broadband has cost 
us hundreds of thousands of dollars to work around this lack of 
connectivity.
    I work with State and local governments on infrastructure 
projects and permitting daily. These are important 
conversations for my company. But decisions made at the Federal 
level impact us more deeply.
    When Congress delays the enactment of a highway bill or 
puts off fixing the highway trust fund yet again, the impact on 
small business is greater, especially in our industry. Since we 
provide the material and we use the system, we need consistent 
and steady direction from our Federal partners.
    At Gernatt, we think of infrastructure in four ways. First, 
the means to get our material to our customers. Second, the way 
we communicate with our facility suppliers and customers. 
Third, the materials that we provide that are used in 
infrastructure projects. And lastly, the projects themselves.
    We believe that streamlining the permitting for a road so 
that it can be built in 2 years instead of 10 is a great stride 
forward. However, if the material needed to build it takes 5 or 
10 years to permit due to overregulation, then the cost of the 
project is doubled or tripled and we are failing to fix the 
root of the problem.
    Like 70 percent of the NSSGA members that are small 
businesses, at Gernatt we do not have the resources that larger 
companies use to comply with confusing, overlapping, and 
unnecessary regulations.
    In 2006, the Corps of Engineers shut down our South Dayton 
plant, suddenly designated part of our water treatment system 
as wetlands, even though these same conditions had not changed 
for 40 years. This decision reversed our decades-long dialogue 
with the agency on this operation.
    Even though we disagreed, we worked with the Corps to fix 
this alleged disturbance. Unfortunately, the Corps had no clear 
idea of what appropriate mitigation might be and forced us to 
constantly change course in order to stay in business.
    This lack of clarity was devastating and took hundreds of 
thousands of dollars and 12 years to resolve, 12 years that 
could have been spent with other projects and supporting our 
workers and local community.
    I would encourage this Committee to look at ways of 
reforming our regulatory system so Gernatt does not have to 
experience another unnecessary 12-year quest for answers.
    As my personal experience shows, small businesses in all 
sectors depend on clear and certain Federal rules and 
regulations as well as robust investment in infrastructure.
    Gernatt supplied material to the Ohio Street Harbor 
Connector project in Buffalo, which cleaned up environmental 
problems, created water side parkland and recreational ship 
canal access, built a beautiful parkway. This project spurred 
millions in residential and commercial development. When 
regulators and small businesses work together great things can 
and do happen.
    Throughout America, thousands of small businesses like ours 
partner with the government to improve the communities we live 
and work in. In addition to streamlining
    regulations, we must have predictable and steady 
infrastructure funding that small businesses can depend on.
    Thank you for my opportunity to speak today.
    Chairman CHABOT. Thank you very much. It is good to have 
you back.
    Mr. Beyer, you are recognized for 5 minutes.

                    STATEMENT OF KEVIN BEYER

    Mr. BEYER. Chairman Chabot, Acting Ranking Member Adams, 
thank you for the honor to testify before the Committee today. 
My name is Kevin Beyer, and I am the General Manager of Farmers 
Mutual Telephone Company and Federated Telephone Cooperative, 
which provide broadband, voice, and cable TV service in rural 
Minnesota. I am also a board member of NTCA - The Rural 
Broadband Association, which represents about 850 small rural 
telecom providers in 46 States.
    There appears to be widespread consensus that high-speed 
broadband is now essential infrastructure and necessary to 
modern life in America. The public policy questions that remain 
are how to best ensure that the service is available, 
affordable, sufficient, and sustainable in high-cost rural 
areas that don't attract private investment on their own 
without an underlying support mechanism.
    It is important in the first instance to understand that 
investment in many rural areas does not offer a practical 
business case for broadband deployment. What rural consumers 
can realistically afford to pay would not even cover the cost 
of operating the network, much less the enormous capital 
expenditures necessary to deploy broadband over vast and often 
rugged terrain.
    Additional resources are needed in such situations to help 
make the business case for broadband investment in ongoing 
operations. In addition, considerations should be given to 
existing programs that would help to ensure such resources are 
directed to the right places to promote and sustain such 
investment.
    For example, the Federal High-Cost Universal Service Fund, 
or USF, provides direct support to keep broadband rates 
affordable for small businesses and residential consumers. This 
support provides the business case needed to justify spending 
or borrowing the upfront capital needed to deploy scalable, 
advanced broadband networks.
    It is important to note that the High-Cost USF program has 
undergone extensive reforms in recent years to reorient the USF 
program towards broadband, ensure funding is targeted to where 
it is needed, and define what the FCC considers an efficient 
level of support in each area.
    In addition, high-cost support recipients must meet 
specified deployment obligations and geocode every new location 
to which they deploy broadband utilizing USF support.
    Leveraging the existing USF program in many infrastructure 
initiatives would allow for quick and effective implementation 
and help avoid the costly and time-consuming exercise of 
building a program from scratch.
    The USDA Rural Utility Service has long been an important 
source of financing for many rural providers as they seek to 
deploy advanced broadband networks. Congress directed RUS to 
create a new $600 million rural broadband loan and grant pilot 
program in its recent omnibus spending bill and included 
language to direct the funding to areas with the worst service.
    While this is a good start, even more resources will be 
needed to spur broadband deployment, and we would encourage 
Congress in future infrastructure initiatives to include the 
same protections and also explicitly ensure that these efforts 
complement ongoing USF and RUS programs rather than competing 
with one another in a way that undermines the cause of rural 
broadband and effective use of those resources.
    Other key principles that should be considered as well: 
Regardless of what mechanism is used to provide support, 
funding recipients should have proven track records and 
demonstrate the ability to deploy and sustain high-speed 
broadband networks. Small businesses and others depend on 
reliable service providers to locate and stay in rural America.
    As consumers demand more from their broadband connections, 
networks should be reliably upgradeable to even higher speeds. 
Precious resources will be wasted if we aim only for the 
capabilities needed today and miss out on the network 
investments that should last for decades.
    While the business case for broadband is the essential 
first step, it is also important to address barriers to 
deployments of networks. Congress should streamline permitting 
processes to ensure small businesses with limited staff don't 
expend scarce resources or suffer from significant delays to 
secure costly and potentially duplicative approvals for network 
construction.
    We recognize that gathering more granular data on broadband 
availability is important, but please take care to ensure that 
such data is not collected in different ways by multiple 
agencies. We should aim for only one set of reports to one 
agency with consistent granular data that can be used to help 
guide policy.
    Again, it is my pleasure to be here today, and I look 
forward to your questions and working with you on these issues.
    Chairman CHABOT. Thank you very much.
    Mr. Dagostino, you are recognized for 5 minutes.

                   STATEMENT OF BOB DAGOSTINO

    Mr. DAGOSTINO. Thank you, Chairman Chabot, Ranking Member 
Adams, members of the Committee, for inviting me to testify 
today. On behalf of the National Electrical Contractors 
Association, NECA, I greatly appreciate the opportunity to 
submit a statement for the record. The Committee is to be 
commended for holding this important hearing.
    My name is Bob Dagostino, and I am the Owner of Dagostino 
Electronic Services. We are a Pittsburgh, Pennsylvania, based 
company founded in 1973 with over 100 employees that design, 
install, maintain technology solutions for voice, data, video, 
security, and control systems.
    We at Dagostino Electronics are proud members of the 
National Electrical Contractors Association where I have had 
the honor to serve on the board of directors for the Western 
Pennsylvania Chapter since 2015.
    NECA's 4,000 contractors play a crucial role in the 
construction and maintenance of our nation's power, 
infrastructure, building, data centers, hospitals, schools, and 
so much more, all with safety as our number one priority.
    When natural disasters occur our linemen work long hours in 
inclement weather conditions to restore power to our homes and 
businesses. We have a track record of installing and 
maintaining complex electrical and communication systems in 
places like airports and rail systems. And we are working every 
day to build the next generation of reliable power and 
communication networks and infrastructure that will advance 
this nation into the next digital revolution.
    We at NECA are committed to empowering lives and 
communities across this great nation.
    After decades of underfunding our nation's infrastructure, 
we are beginning to see the signs of reinvigorating growth. 
While the recent proposal from the White House was encouraging, 
NECA holds concerns over the lack of direct Federal funding. 
More direct Federal spending is critical to ensure the safety, 
security, and efficiency of our transportation, power, and 
communication networks.
    As this Committee searches to understand the relationship 
between infrastructure development and small business, they 
should keep in mind that work done well the first time by 
qualified contractors and highly skilled tradespeople is the 
very best return on investment that can be made. Therefore, 
Congress should continue the application of the prevailing wage 
laws on Federal infrastructure projects.
    The next topic I hope to address is a paramount issue for 
thousands of small businesses we represent, and that is prompt 
payment. Even with deadlines imposed by prompt payment laws, 
small business contractors continue to tell horror stories of 
not receiving payment for months beyond their due date, if not 
years on end. Small businesses knowingly assume risk by 
agreeing to complete work, but they do so under the assumption 
they will be paid within a reasonable period of time.
    To begin the process of fixing these issues, we at NECA 
encourage members of the Committee to continue their support 
for the Representatives Fitzpatrick, Knight, and Murphy bill, 
the Small Business Payment for Performance Act. Legislation 
such as this is needed to address the burden placed on small 
businesses by improper pay practices of the construction 
industry.
    The next matter concerning my company and many others 
around the country is that no matter how much infrastructure 
work comes down the pike there is no way to complete it without 
an adequate workforce. That said, this Committee is well aware 
of the workforce shortage we face in the trades. If our nation 
is to address its infrastructure needs, it must first address 
this problem.
    In response to the challenge, NECA has turned to its 70-
year-old partnership with the International Brotherhood of 
Electrical Workers that has produced the best electricians, 
linemen, and communication craftspeople in our nation's 
history. Our joint apprenticeship program with the IBW receives 
no Federal money and educates students through as many as 
10,000 hours of on-the-job and classroom education.
    NECA believes that through these three simple objectives we 
can responsibly address the skilled labor shortage, and they 
are to further encourage our young people to recognize the 
opportunities that a job in the construction and maintenance 
trades presents; secondly, to financially incentivize young 
people who choose this route and the employers who hire these 
new workers; and third, to remove any regulatory roadblocks for 
potential entry into the trades.
    With all that said, as a small business contractor, I am 
extremely encouraged by this Committee's efforts to understand 
the role that small businesses play with infrastructure 
projects. The overarching themes of funding, contract reform, 
and workforce shortages can be found nationwide.
    Thank you for the opportunity to testify, and we are 
optimistic that this Committee remains committed to addressing 
the challenges that face our nation's small
    businesses and the need for the infrastructure investments 
so this country can compete in a global economy.
    Chairman CHABOT. Thank you very much.
    Mr. DAGOSTINO. You are quite welcome.
    Chairman CHABOT. I will now recognize myself to begin the 
questioning for 5 minutes.
    And I will begin with you, Ms. Geldert-Murphey.
    In your testimony you mentioned the ``One Agency, One 
Decision'' policy for Federal permitting. Could you explain the 
impact that that would have on small businesses and the 
American economy?
    Ms. GELDERT-MURPHEY. Absolutely. ``One Decision, One 
Agency'' will reduce the time of delays on projects. And small 
businesses in particular can't absorb the risk that goes along 
with long delays on projects.
    Large firms can absorb, they have the ability to absorb the 
risks in delays. And so it is very, very important for small 
businesses that we get a decision, we come to an answer. The 
answer may be that the project can't be constructed, that it is 
not appropriate, and that is fine.
    Let's come to the answer so that we can move on and use our 
resources on projects that are good for our economy and good 
for our businesses. And small businesses can't tolerate some of 
those delays in the way that large businesses can.
    Chairman CHABOT. Thank you very much.
    And, Mr. Schmitz, I will turn to you.
    Could you talk about the importance of strong 
infrastructure in the rural areas and small towns? It seems 
like we talk about it a lot in terms of our cities, but I think 
sometimes the more rural areas get kind of short shrift. And if 
you could talk about that, I would like to hear what you have 
to say.
    Mr. SCHMITZ. Oh, thank you very much. It is a great 
question.
    Our infrastructure, we are rural, farm-to-market 
communities that we live and work in, and we have got firearms, 
we have got other businesses. When the infrastructure is bad 
and there is a detour on a road it is not oftentimes there is 
another State highway available for 10 to 15 miles. Detours are 
a killer to many small businesses.
    Bridges are restricted, roadways are restricted. It costs 
the businesses money. And in today's competitive marketplace, 
those costs are borne by the small businesses. Employees cannot 
get to work. Projects take much longer than they should when a 
bridge is identified or a failing road is identified.
    Oftentimes the length of time it takes to get permits to 
reconstruct it is a huge burden. It is several years, 2 to 3, 5 
years at times to reconstruct a bridge that had an unknown 
structural defect.
    Chairman CHABOT. Very good. Thank you very much.
    Mr. Beyer, I will turn to you now.
    This Committee held a hearing earlier this month on the 
disappearing business case for investing in rural broadband 
markets. What can Congress do to incentivize carriers, large 
and small, to invest in deploying broadband services to rural 
communities?
    Mr. BEYER. Thank you for the question, Chairman.
    The RUS program that they provided funding for will 
certainly help in that case, but we need coordination and 
funding through both the USF program and the RUS program and 
make sure that they are not competing with each other to serve 
the same areas.
    Once the broadband is built and has provided the services 
required by the program, we should make sure that those scarce 
resources are not building duplicate networks over the top.
    So coordination is one of the big concerns we would have. 
And then, of course, the USF fund has been underfunded and has 
continuing underfunding needs, so we would hope that additional 
funds could be supplied to the USF program.
    Chairman CHABOT. Thank you very much.
    And I have got about a minute left, Mr. Dagostino, so I am 
going to conclude with you.
    What would you say is the number one challenge that small 
businesses experience due to lack of certainty from the Federal 
Government when it comes to infrastructure or any of the groups 
that you mentioned? What do you think is one of the most 
significant challenges with respect to infrastructure?
    Mr. DAGOSTINO. Well, one reality is that many of the 
software programs that we as contractors use today are becoming 
to be cloud-based solutions, which the connectivity of 
broadband is critical so that our on-site people can have 
collaboration on the project and efficiency, accuracies of 
performing the work.
    And we, as small businesses, are able to actually compete 
against larger companies because of the fact that the software 
that is cloud-based today gives us the same kind of competitive 
advantage that they would of having such a large software 
program. There is just one.
    Chairman CHABOT. Okay. Thank you very much. I appreciate 
it. My time has expired.
    The acting Ranking Member, Ms. Adams, is recognized for 5 
minutes.
    Ms. ADAMS. Thank you, Mr. Chairman.
    Mr. Schmitz, what types of Federal highway projects will be 
or currently are impacted by the highway trust fund and how can 
we improve upon this resource?
    Mr. SCHMITZ. The issue we have with the instability of the 
highway trust fund is the States' abilities to properly plan 
long-term transportation projects and transportation plans. 
Without a steady source of funding, the planning and the actual 
completion of projects is often impacted by delayed funding.
    And especially in the Northeast where we operate, we are a 
seasonal business. You all hear Buffalo, there is two seasons, 
construction and winter, and this year the construction season 
is going to be very short. So we have to be ready to go when 
summer comes.
    And it is not a 12-month program; it is 6 months. And we 
need to know, we need that certainty, and stable Federal 
funding translates to State programs that work, which 
translates to local programs that work. So it is a trickle-down 
effect.
    Ms. ADAMS. Okay. Is private financing for construction 
projects linked to the availability of resources in the trust 
fund?
    Mr. SCHMITZ. We have tried in New York to do some private 
financing, but that is difficult with the uncertainty of the 
Federal funding and matching funds. Again, the certainty of the 
program is paramount. A fixed highway trust fund equals steady 
funding, and people can plan 5 and 10 years out, and businesses 
are willing to invest when they have the certainty of what is 
going to happen in a few years.
    Ms. ADAMS. Right.
    Mr. Dagostino, rural areas can be hit hard by economic 
instability given they are in isolation and in some communities 
limited diversity of industries. What investments would be most 
useful to spur growth in these regions?
    Mr. DAGOSTINO. Well, coming from Pittsburgh, Pennsylvania, 
one of the industries that we had in there for many years was 
the steel industry. And what brought the steel industry to 
Pittsburgh was the natural resources of infrastructure of 
rivers and railroad.
    Today's digital era that we begin to live in today requires 
connectivity, be it broadband, internet. So the rural area 
needs to be served because it is no longer location, location, 
location; it is connectivity, connectivity, connectivity.
    Without that connectivity, the small business doesn't have 
a chance. The farmers, agriculture, every facet is affected by 
the lack of that infrastructure in place. And I am speaking 
strictly on the technology component of that.
    Ms. ADAMS. Okay. What Federal efforts do you suggest to 
target infrastructure to these areas in order to facilitate 
growth and attract small businesses to locate and remain in 
rural communities?
    Mr. DAGOSTINO. I would say that there are a few things. One 
is, of course, the funding necessary to get some of these 
projects off the ground to give certainty. Two, the 
application, even if they go into a private partnership type of 
environment. That, and to understand that the projects should 
have more of a master plan, if you will.
    Infrastructure consists of a combination of highways, high-
voltage tires, wireless connectivity, fiber optics, smart 
cities. I think if we sit back more and create more of a master 
plan that we can leverage the moneys that are spent across all 
of these infrastructure efforts.
    Ms. ADAMS. Okay.
    Construction and manufacturing, which are both dominated by 
small businesses, are sensitive to the business cycle. How can 
infrastructure help firms mitigate the effect of these 
instabilities?
    And anyone may take that question. You have got about 45 
seconds.
    Ms. GELDERT-MURPHEY. I would be happy to answer that 
question.
    Ms. ADAMS. Yes, ma'am.
    Ms. GELDERT-MURPHEY. Thank you.
    You know, I think the important thing is that it goes back 
to what we have all been saying, is that there needs to be 
consistency, stability, reliability. We need to know that there 
is strong Federal leadership in the infrastructure.
    And so as long as there is strong Federal leadership in the 
infrastructure, the States, the locals, the businesses, private 
enterprise can follow along and do what they are designed to 
do. But we need strong Federal leadership to progress our 
infrastructure and have a strong economy, increase the GDP, 
increase income, increase jobs.
    Ms. ADAMS. Thank you.
    Mr. Chairman, I am going to yield back.
    Chairman CHABOT. The gentlelady yields back.
    The gentleman from Iowa, Mr. King, is recognized for 5 
minutes.
    Mr. KING. Thank you, Mr. Chairman.
    I want to thank all the witnesses for your testimony.
    I am sitting here listening to each piece of this 
testimony. And, first, as background, I started a construction 
company in 1975, and so I have got something in common with 
everybody here along the way.
    The engineering component that you have testified to, Ms. 
Geldert-Murphey, and the sand and gravel and the surfacing, we 
have done a lot of the support work for that and worked around 
that a lot.
    And then with the broadband piece, I was the first customer 
of DSL service on two different telephone networks when they 
connected.
    And they said, ``Well, the reason we haven't really 
deployed this yet is because we don't know how to price it.''
    And I said, ``Wire it up to my place, because I am the guy 
that doesn't care how much it costs. I have got to have it.''
    And then with the electrical side of this thing, too.
    So here is my reflection as I am listening. Last Sunday 
after church I went over to look at my son's new shop for a 
construction company, and I had watched it come together here 
over the last few months. And it is almost close to done. It is 
out in the country, a couple miles from the nearest town and a 
mile from their house. Works out really great.
    But what I am seeing in there--first, no, I have to reflect 
a little bit. I built a shop in the country in 1979. I ended up 
moving the office to town because we needed to be closer to the 
post office when we put a bid in and to get that in by a 
postmark time. And we drove to engineering firms to pick up a 
set of plans and leave a $50 or $100 deposit for that roll of 
plans.
    That is how it was then. And today we download the plans 
off high-speed internet and we bid electronically. And that 
shop is set up now to where he can control the locks on it from 
anywhere in the world, and he can watch the monitoring cameras 
on what is going on inside and outside from anywhere in the 
world, whether it is high-speed service, which is what you were 
thinking, Mr. Beyer. You have to have the service on the other 
end, too.
    But it is fantastic the changes that have taken place. So 
he has rural water there, he has all the electrical he needs. 
That was built by the co-op back in the day. And then the fiber 
optics coming in.
    And I said, ``What kind of speed do you have?''
    And he said, ``It is fiber optic. Anything I want to pay 
for I can have here.''
    So all of those utilities that you see in the center of the 
city is out in rural Iowa, and there is nothing that can slow 
him down that I can see in being competitive in his--except the 
logistics--in anyplace in the world.
    So I am thrilled by the progress we have made, but I am 
also very well aware that that progress hasn't been made 
everywhere. This is an exception as far as I view it.
    So as I listened to the testimony, a couple of things came 
to mind. One is, I want to let you know how much I support 
high-speed services everywhere. We are controlling tractors 
with them and managing farms with them, and it goes on and on. 
And the imagination that we had 10 years ago doesn't begin to 
look into what we are actually doing today.
    But a couple of things that came up that I was concerned 
about that I wanted to ask on is this, that I would think 
everybody here as witnesses are interested in getting the most 
out of the dollars we have to build the maximum amount of 
infrastructure.
    And so when the highway trust fund came up, I started to 
think about when I came into this town I had the formula, and I 
am not sure it is exactly the same today but it is close. They 
announced that 28 percent of that trust fund was being used to 
satisfy environmental and archeological requirements.
    And I would say about 20 percent went to Davis-Bacon. That 
is the standard number that I have used for a long time, Davis-
Bacon wage scales. Three percent went to trail. Seventeen 
percent went to mass transit. That left about 32 percent for 
roads and bridges, which is my shorthand version for trust fund 
dollars.
    Is that a concern to any of you, about actually building 
more roads and bridges out of the trust fund dollar and getting 
more out of the dollars we have, or is the ask ``let's add more 
to the pie'' rather than redirect the spending within it?
    I would start with you, Ms. Geldert-Murphey.
    Ms. GELDERT-MURPHEY. Thank you. And I appreciate that 
question.
    You know, it is a twofold answer. Number one, we are 
dealing with dollars on the Federal highway trust fund that 
started in 1993 and haven't been increased or indexed since 
then. So they don't have the buying power even in the 
percentages that we were looking at before.
    However, we do believe that we need to protect the health, 
safety, and welfare of--that is in our ethics canon for civil 
engineers--to protect the health, safety, and welfare. We 
believe strongly in that.
    However, we do believe, as we said, with the ``One Agency, 
One Decision'' suggestion, that that would help expedite 
matters and take time towards working towards projects and 
funding working towards projects.
    Mr. KING. I am going to run out of time here, so please.
    Ms. GELDERT-MURPHEY. Okay.
    Chairman CHABOT. Thank you.
    Mr. Schmitz, if the chair would allow me to let the 
witnesses answer.
    Yeah. If you could keep your answers relatively brief, but 
we will go right down.
    Mr. SCHMITZ. Okay. Thank you.
    I would concur with what was just said. But if we can build 
projects quicker, streamline coordination between agencies, 
Federal and State, these projects that need to be addressed 
could be built more timely and efficiently. And the key is a 
standard plan, a long-term plan to do this so that we can move 
forward.
    Mr. BEYER. So in our case the USF fund is the underpinning 
for us to be able to get loans and be able to keep a network in 
place and operate that network at a rate that a consumer can 
afford.
    And, yes, it would be very good for agencies to have a 
single reporting system that we could use, and instead of 
reporting to every agency separately, report to one separate 
form that would be shared across agencies.
    But we do need additional funds in USF. The FCC has 
recognized that and so has Congress.
    Chairman CHABOT. Mr. Dagostino.
    Mr. DAGOSTINO. In reference to the application of any 
infrastructure in that nature, I would say that that creates a 
pathway for us, a pathway to either lay fiber optics, a pathway 
perhaps to connect an electric grid.
    So, again, getting back to my earlier point of looking at 
this on a master plan schedule would be the very most 
beneficial that the government can do is to try to do it in 
that fashion, keeping in mind that we want to get the work 
performed by the most qualified individuals so that we get the 
longest life cycle out of something. It is not just the initial 
investment of cash, but let's look at it in more of a life 
cycle than just the initial cost.
    Mr. KING. Thank you.
    Yield back, Mr. Chairman.
    Chairman CHABOT. The gentleman's time has expired.
    The gentleman from Pennsylvania, Mr. Evans, who is the 
Ranking Member of the Subcommittee on Economic Growth, Tax, and 
Capital Access, is recognized for 5 minutes.
    Mr. EVANS. Thank you, Mr. Chairman.
    Mr. Dagostino, the Governor of Pennsylvania announced 
investments of $60 million for 12 drinking water, wastewater, 
nonpoint source projects across 12 counties to PENNVEST. Can 
you put that in context a little bit when you talk about 
connectivity versus location as a model of what you are 
referring to in terms of this conversation?
    Mr. DAGOSTINO. In reference to wastewater?
    Mr. EVANS. Well, just in reference to--waste water is one 
example. But the fact that here is a State making investment in 
infrastructure. Can you just speak to--because you used the 
word ``connectivity.''
    Mr. DAGOSTINO. Connectivity, right.
    Mr. EVANS. Yes.
    Mr. DAGOSTINO. Right. And I think, well, in that case there 
that what we are looking at also is maybe not so much a 
centralized location but more of a distributive type of 
topology, if you will, of these types of infrastructures so 
that they can lend themselves to be either primary or secondary 
path connectivity, support needs that we have today.
    Mr. EVANS. Right. And the reason I probably ask you that is 
this is the first time I have heard that term used in terms of 
connectivity versus. Usually most people say location, 
location. And what I am hearing you say is sort of like a new 
world we are operating in.
    Mr. DAGOSTINO. Most definitely. We are in a digital era.
    Mr. EVANS. Right.
    Mr. DAGOSTINO. The Internet of Things, the industrial 
Internet of Things, the blockchain environment. There are so 
many new things that are coming into that we need to prepare 
ahead of time to address them, and to leverage these new 
technologies to do one thing, and that is to make our lives 
that much better.
    Mr. EVANS. You sort of saw the direction I was going in the 
questioning about the aspect of connectivity, as the gentleman 
has just expressed, about local government, State government, 
local government, and better use of the dollars.
    Can you speak a little bit to that?
    Mr. BEYER. I can speak a little bit.
    So in our case, in Minnesota, we have a border-to-border 
program that helps fund broadband build-outs. And that program 
works in conjunction with Federal programs, such as the USF 
program or RUS lending programs, that allow us to build fiber 
optics to provide that connectivity that they are talking 
about.
    But the topography, as he speaks of, is more of a 
distributed network, and we do need to get fiber connectivity 
for the bandwidth that continues to grow that our small 
businesses need to operate.
    Mr. SCHMITZ. That is a very good question. In our case, 
where we do business is where the natural resources are 
deposited. So the most logical areas are where the natural 
resources are good, which are often rural areas, and for us to 
competitively compete in business and to do business we need 
the connectivity of broadband.
    And currently, as I said in my testimony, that we had to 
invest in a private microwave network just so we were able to 
do business in today's world. So it is very important for this 
to be available not only to us, but to our customers, our 
suppliers, our employees, so that we can communicate in today's 
world.
    Ms. GELDERT-MURPHEY. Thank you.
    With regard to State and local agencies, particularly from 
our perspective, we have seen a lot of them step up over the 
last 4 years; 26 States have added a gas tax. But they need a 
strong Federal partner. And that is what we have had in a long 
time, and that is the way the system has been set up, to have 
that strong Federal partner.
    You know, as the Constitution has in the Commerce Clause, 
that is to look at the farm-to-port cost. That helps the rural 
areas, but understanding we need to have strong urban areas as 
well.
    Mr. EVANS. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman CHABOT. Thank you very much. The gentleman yields 
back.
    The gentleman from Iowa, Mr. Blum, who is the Chairman of 
the Subcommittee on Agriculture, Energy, and Trade, is 
recognized for 5 minutes.
    Mr. BLUM. Thank you, Chairman Chabot.
    Thank you to our panelists for being here today.
    Congressman King is from western Iowa; I am from 
northeastern Iowa. As I tour my district of 20 counties, the 
number one economic issue in my district is lack of workers, 
workforce development.
    Highway and heavy contractors in particular, we cannot find 
people to go out and do the work. And these are good-paying 
jobs, with good benefits, that can't be exported to China or to 
Mexico, one of the reasons I love infrastructure.
    So I would like to hear from each of you, if you would, on 
what can we do, what can your industry do, what can we do at 
the Federal Government level, to ensure a more reliable stream 
of workers.
    I have talked to Treasury Secretary Mnuchin, I have talked 
to Speaker Paul Ryan, I have talked to the administration, and 
I have said the Tax Cuts and Jobs Act bill is a good thing for 
business in our economy, get us growing at maybe 3 percent GDP 
a year.
    But I think we can grow 4 percent. But we need a couple 
things to happen. One is we need welfare reform. You know, if 
you are physically and mentally able to work, you should be 
working, to put it simply. It is not a simple issue, but that 
would summarize my thoughts on it. And secondly, we need tons 
in Iowa of legal immigration to help supply the workforce.
    So I would love to hear your thoughts on what your 
industries are doing and what role can the Federal Government, 
could we be playing or should we be playing, in finding you all 
workers.
    Ms. GELDERT-MURPHEY. I would love to tackle that one. Thank 
you very much.
    Mr. BLUM. I would love to have the answers.
    Ms. GELDERT-MURPHEY. I think that it goes back to what all 
of us on this panel have been saying, is consistency, 
consistency, consistency, reliability. So the business cycle is 
strong if there is strong funding and consistent funding in 
place. Then we know that the work is available.
    So the workforce that is out there is not attracted to a 
business where you don't know as the ups and downs will come 
and go for the business cycle. So that is number one.
    Number two, we do need to have strong apprenticeship 
programs. We do with our company as well, and that helps us. We 
have got a lot of young people who come into the apprenticeship 
program for our company, and they are grateful to see that they 
can earn a good wage.
    But once again, we have to have consistent funding to keep 
the business strong, the business cycle strong.
    Mr. BLUM. Mr. Schmitz.
    Mr. SCHMITZ. I believe we really need to focus on 
education. And one thing that our company has done is started 
doing outreach to children in elementary school and explaining 
to them about our industry, the construction industry, and the 
fact that our great paying jobs and careers and working with 
your hands and with machinery and building America is a good, 
great way to make a living, and they should not feel ashamed 
that they are not getting a 4-year degree.
    There are great tradespeople. You can make a great living 
as an electrician, as a plumber. These are good ways to do 
that, being a bricklayer, a truck driver. These are jobs that 
build America and they should be proud of it. And I think it 
really starts as young with education in the schools.
    Mr. BLUM. Is there anything the Federal Government should 
be doing? I don't typically ask that type of question.
    Mr. SCHMITZ. Well, I am not sure exactly----
    Mr. BLUM. Because we do way too many things.
    Mr. SCHMITZ. Right. And that is the key, but that is 
something that I personally pushed. I was president of my local 
school board and we pushed vocations. Being rural areas, we 
need people. As you said, the farmers need people. I grew up on 
a farm. There are not enough people in the rural areas to work, 
and it is even worse in the city.
    One of the things that could help is the Federal 
Government's push for quotas, minority and women's business. 
Sometimes those quotas misalign availability of people to work 
on the jobs, especially in rural areas. Certainly urban areas 
it is a great program, but we are so far removed from the city 
that sometimes it creates an issue with quotas.
    Mr. BLUM. Thank you.
    Mr. Beyer.
    Mr. BEYER. Thank you for the question.
    We find that healthy communities are the biggest issue for 
us because we do have people that are interested in our 
industry, our technology. It is exciting, to some extent, as to 
the broadband world grows.
    But what we often lack is the additional job for that 
spouse to come out to our area. And what needs to happen is we 
need telehealth, telework, in order for that spouse to have 
employment, and that takes those broadband networks for them to 
be able to work from home and be connected to society and their 
families when they move that way.
    And all of that underpinned for us, as we look at it, is 
that USF program needs to be sufficiently funded in order for 
those networks to continue to be there, to be sustainable and 
affordable to consumers.
    Mr. BLUM. That is a good point.
    And I hope I don't mispronounce your name, Mr. Dagostino.
    Mr. DAGOSTINO. Dagostino. It is not a problem.
    A few things that we are trying to do, and that is, in our 
office we are bringing the children to our office to see what 
work is all about. It is just good to get them involved as 
early on. Helmets to hard hats is another thing that we 
encourage to do.
    And any of the acts that are presently in play right now, 
for example, the 529 savings act, to be able to leverage that 
towards ancillary costs that an apprentice may get going 
through their process.
    And that is some tax incentive for us as employers to hire 
apprentice, that over the years it has gone from the counselors 
in school directing all the students to head towards college. 
And we did not really get a very good cut of the people that 
are going through high school to move into the trades.
    So I would encourage if somehow we could get plugged into 
those counselors a lot better to give the students options.
    Mr. BLUM. Great. Thank you very much. My time has expired. 
It is a real issue, though, so thank you for your insight into 
that.
    I yield back the time I don't have, Mr. Chairman.
    Chairman CHABOT. Thank you very much. The gentleman's time 
has expired.
    After consultation with the acting Ranking Member, we 
decided that since we started late and in the interest of 
respecting everybody's time, we won't go into a second round 
here. I think the answers that we were given were very 
comprehensive and very helpful.
    And we are talking about a very important issue, 
infrastructure, and the importance of it to the American 
economy and especially the importance of including small 
business in this effort.
    So we want to thank you all for helping us to have more 
insight than we did before we started this meeting.
    And I would also ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record. Without objection, so ordered.
    and if there is no further business to come before the 
committee, we are adjourned. Thank you very much.
    [Whereupon, at 12:57 p.m., the committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
